TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 The Internal Revenue Pay-for-Performance
                   System May Not Support Initiatives to
                Recruit, Retain, and Motivate Future Leaders



                                            July 3, 2007

                              Reference Number: 2007-10-106




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   July 3, 2007


 MEMORANDUM FOR CHIEF HUMAN CAPITAL OFFICER



 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Internal Revenue Pay-for-Performance
                               System May Not Support Initiatives to Recruit, Retain, and Motivate
                               Future Leaders (Audit # 200510030)

 This report presents the results of our review of the Internal Revenue Pay-for-Performance
 System. The overall objective of this review was to determine whether the Internal Revenue
 Pay-for-Performance System effectively links compensation to individual performance. We
 focused our efforts on how the Internal Revenue Service (IRS) implemented the new System for
 managers and whether the IRS complied with the Personnel Flexibilities provisions of the IRS
 Restructuring and Reform Act of 19981 and the Office of Personnel Management Criteria for IRS
 Broadbanding System. We also evaluated potential risks to ongoing human capital initiatives to
 recruit, retain, and motivate future IRS leaders.

 Impact on the Taxpayer

 The structure and methods of pay progression included in the redesigned Internal Revenue
 Pay-for-Performance System may not support the positive impacts of Human Capital Office
 (HCO) initiatives to recruit, retain, and motivate future IRS leaders. In addition, the new System
 was not adequately communicated to the managers before it was implemented, causing
 opposition and decreasing morale. As a result, the IRS risks reducing its ability to provide
 quality service to taxpayers because the Internal Revenue Pay-for-Performance System
 potentially hinders the IRS’ ability to recruit, retain, and motivate highly skilled leaders.


 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                            The Internal Revenue Pay-for-Performance System
                            May Not Support Initiatives to Recruit, Retain, and
                                         Motivate Future Leaders



Synopsis
Over the next few years, the IRS faces significant challenges because of the potential for
substantial loss of highly skilled technical managers and employees due to pending retirements.
To maintain the continuity of its leadership and workforce, the IRS must ensure its managerial
compensation system effectively attracts and retains high-performing individuals from both
inside and outside the IRS and provides greater flexibility to reward and motivate high levels of
performance. The current Internal Revenue Pay-for-Performance System may not accomplish
this. On the contrary, the current System may discourage both managers as well as nonmanagers
from applying for management positions.
The HCO implemented the Internal Revenue Pay-for-Performance System in three phases: the
Senior Manager Payband2 was implemented in March 2001, the Department Manager Payband
for the newly designed Campuses3 was implemented in November 2001, and the Frontline
Manager Payband was implemented in September 2005. The Senior Manager and Department
Manager Paybands were revised in March 2006 to incorporate the pay elements of the Frontline
Manager Payband.
We identified several areas in which the System can be improved to better support the IRS’
desire to attract and retain talented individuals for its management positions.
    •   Although the IRS used the IRS Restructuring and Reform Act of 1998 authority to
        proceed with the implementation of the Internal Revenue Pay-for-Performance System, it
        does not appear the System fully implements all of the Act’s provisions, which were
        designed to help facilitate pay and classification adjustments necessary to restructure the
        IRS’ organization.
        For example, the Frontline Manager Payband did not improve the IRS’ existing manager
        classification system, which was considered to be especially problematic. Instead, the
        HCO acknowledged that the frontline manager single-grade band design was
        implemented to reflect the existing frontline management structure, which had a wide
        variety of occupations and grades that were difficult to group into common levels of
        work. Although the HCO recognized the advantages of grouping positions into broad,
        occupational paybands, after several attempts, the Human Capital Advisory Council
        failed to reach an organizational consensus on how to design multigrade, occupational
        bands for the frontline managers because of differing career paths among the business
        units. As a result, the HCO did not group job positions and related ranges of pay but


2
  Payband means a pay level or work level within a career path containing one or more General Schedule Pay
System grades and related ranges of pay.
3
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                               2
                    The Internal Revenue Pay-for-Performance System
                    May Not Support Initiatives to Recruit, Retain, and
                                 Motivate Future Leaders


    instead retained the General Schedule (GS) Pay System grades as separate bands and
    simply removed the incremental steps within each grade.
•   In addition, the HCO did not establish pay policies and procedures that ensured managers
    are compensated comparably with IRS employees in the GS Pay System or that the
    performance-based increases are commensurate with the managers’ performance.
    This is important given that, at the discretion of the IRS Commissioner each year, the IRS
    may withhold from its managers the annual across-the-board pay adjustment that is
    provided to all other IRS employees and all other Federal Government employees
    compensated under the GS Pay System. If this happens, managers compensated under
    the Internal Revenue Pay-for-Performance System in future years may not be paid
    comparably with other IRS employees under the GS Pay System, who automatically
    receive the annual across-the-board pay adjustment.
    In addition, because the Office of Personnel Management guidelines require the salary
    range in a payband to be equivalent to the comparable GS Pay System salary range, it is
    possible that managers at the high and low end of their respective payband salary ranges
    will not receive a pay raise commensurate with their performance. For example, a
    manager at the high end of the payband cannot receive more than the high end of the
    corresponding GS Pay System grade even if he or she is rated as Outstanding. However,
    a manager at the low end of the payband who is not meeting standards will automatically
    receive the same percentage increase in salary as a manager rated as Outstanding because
    of the requirement for the payband salary ranges to increase in accordance with the
    GS Pay System increase.
•   Finally, the HCO did not sufficiently communicate the details of the Internal Revenue
    Pay-for Performance System to the affected managers, which decreased morale and
    increased opposition to some of the provisions of the System.
    In September 2005, the IRS expedited the implementation of the Frontline Manager
    Payband by at least a year in an effort to “minimize the impact of the conversion costs
    [from the GS Pay System to paybanding] in Fiscal Year 2005.” With its immediate goal
    of meeting the accelerated deadline for implementation, the IRS did not allow sufficient
    time for the executives to communicate the details of the new pay system or attempt to
    seek support from the affected managers, which caused speculation and apprehension
    about how the new System would affect managers’ pay. In addition, the IRS waited until
    October 2006 to announce that all managers who received a Met, an Exceeded, or an
    Outstanding performance rating would receive a salary increase that was at least equal to
    the annual across-the-board pay adjustment. Therefore, the managers remained uncertain
    throughout their entire Fiscal Year 2006 rating period as to how much salary increase
    they would receive, if any at all. The two major Associations that represent IRS
    managers reported significant frustration among their members with the lack of

                                                                                            3
                       The Internal Revenue Pay-for-Performance System
                       May Not Support Initiatives to Recruit, Retain, and
                                    Motivate Future Leaders


       communication by the HCO. In addition, an overwhelming majority of the Associations’
       members, who responded to a survey, opposed any plans to reallocate the annual
       across-the-board pay adjustment (e.g., give higher performing managers an additional
       increase by taking some of the across-the-board increase from the managers performing
       at a satisfactory level).

Recommendations
We recommended the Chief Human Capital Officer (CHCO):
   •   Reconsider the structure of the Internal Revenue Pay-for-Performance System for the
       Frontline Manager Payband by streamlining job classifications to be more broadly based
       on the nature of the work performed and competencies.
   •   Reinstate the policy of providing managers who receive a satisfactory (Met) or higher
       rating with the annual across-the-board pay adjustment that is provided to IRS employees
       in the GS Pay System.
   •   Consider alternate sources of funding for the performance-based salary pools and ensure
       the amounts dedicated for increases are sufficient to both reward top performers and
       compensate other managers equitably, based on their performance.
   •   Offer employees an opportunity to express concerns and questions about the new pay
       system directly to the HCO experts and make an effort to communicate more openly and
       timely with employees before implementing any new changes to employee compensation
       and benefits.

Response
IRS management agreed with three of our four recommendations and disagreed with one
recommendation. The IRS has initiated a third-party evaluation of the Internal Revenue
Pay-for-Performance System in its entirety, including an assessment of the Frontline Manager
Payband and a review of the performance-based salary pools. This evaluation will be conducted
in 3 phases over 5 years; will determine whether, and how strongly, the current Internal Revenue
Pay-for-Performance System supports the human capital organizational goals to recruit, retain,
and motivate future leaders; and will provide recommendations to strengthen the System. In
addition, the CHCO plans to take efforts to more effectively communicate with employees and to
develop a communication strategy that considers any third-party recommendations in this area.
IRS management disagreed with our recommendation to reinstate the policy of providing
managers who receive a satisfactory or higher rating with the annual across-the-board pay
adjustment that is provided to IRS employees in the GS Pay System. The authority to provide

                                                                                                 4
                         The Internal Revenue Pay-for-Performance System
                         May Not Support Initiatives to Recruit, Retain, and
                                      Motivate Future Leaders


managers with the annual across-the-board pay adjustment rests with the IRS Commissioner,
who will consider exercising this discretion in the future. To date, the Commissioner has granted
these managers a minimum increase equivalent to the GS Pay System across-the-board pay
adjustment. IRS management stated that instituting a mandatory minimum increase in policy is
not fiscally practicable at this time due to budgetary implications and restraints. Management’s
complete response to the draft report is included as Appendix IV.

Office of Audit Comment
We recognize the flexibility provided to the Commissioner to set pay increases under the Office
of Personnel Management Criteria for IRS Broadbanding System and are not suggesting this
authority be removed. We also recognize the Commissioner’s desire to grant pay raises with
meaningful distinctions for managers rated as Outstanding, Exceeded, and Met. We believe the
Commissioner can do both. Although the Commissioner granted managers who received a Met
or higher performance rating with a minimum increase equivalent to the annual across-the-board
pay adjustment in January 2007, this was intended to apply only to that year. In 2006, the IRS
changed its prior policy of granting the across-the-board pay adjustment to all managers with
satisfactory performance and stated future pay adjustments would be decided on a year-by-year
basis by the current Commissioner. However, the across-the-board pay adjustment is not tied to
an employee’s level of performance; it is a measure of the increase in the cost of labor. As a
result, if in the future this flexibility results in some managers not receiving the across-the-board
adjustment, there are indications that it could come at the expense of the morale and employee
satisfaction of managers performing at the Met rating level. We believe the IRS should consider
all of the implications of such a decision in allocating pay raises to its managers.
Further, we believe that some adjustments to the Frontline Manager Payband may be necessary
to improve managers’ morale and to enhance the IRS’ ability to recruit qualified employees into
manager positions. In addition, efforts to create an effective pay-for-performance compensation
system may be undermined if the performance-based salary pools are not adequately funded.
We agree that a comprehensive evaluation is needed to determine the adequacy of the funding
for the performance-based salary pools and to assess the effectiveness of the methodology used
to calculate future salary increases.
Copies of this report are being sent to the IRS managers affected by the report recommendations.
Please contact me at (202) 622-6510 if you have any questions or Nancy A. Nakamura, Assistant
Inspector General for Audit (Headquarters Operations and Exempt Organizations Programs), at
(202) 622-8500.




                                                                                                    5
                                  The Internal Revenue Pay-for-Performance System
                                  May Not Support Initiatives to Recruit, Retain, and
                                               Motivate Future Leaders




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Internal Revenue Pay-for-Performance System May Not
          Reward and Motivate High Levels of Performance for Managers ...............Page 4
                    Recommendation 1:........................................................Page 12

                    Recommendation 2:........................................................Page 13

                    Recommendation 3:........................................................Page 14

          Inadequate Communication Increased Opposition and
          Decreased Morale .........................................................................................Page 15
                    Recommendation 4: .................................................................. Page 17


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 20
          Appendix III – Report Distribution List .......................................................Page 21
          Appendix IV – Management’s Response to the Draft Report ......................Page 22
         The Internal Revenue Pay-for-Performance System
         May Not Support Initiatives to Recruit, Retain, and
                      Motivate Future Leaders




                  Abbreviations

CHCO           Chief Human Capital Officer
GS             General Schedule
HCO            Human Capital Office
IRS            Internal Revenue Service
OPM            Office of Personnel Management
RRA 98         IRS Restructuring and Reform Act of 1998
                             The Internal Revenue Pay-for-Performance System
                             May Not Support Initiatives to Recruit, Retain, and
                                          Motivate Future Leaders




                                             Background

Broadbanding–commonly referred to as paybanding–is a system for grouping positions for pay,
job evaluation, and other purposes that is different from the General Schedule (GS) Pay System.1
Paybanding is a result of combining grades and related ranges of rates of pay in one or more
occupational series, such as tax compliance, law enforcement, and Counsel.2 In general,
occupations are assigned to one or more related job series, and the grades are grouped into bands
that reflect the career paths associated with the occupational job series.3 The Personnel
Flexibilities provisions of the Internal Revenue Service (IRS) Restructuring and Reform Act of
19984 (RRA 98) authorized the Secretary of the Treasury to establish one or more paybanding
systems covering all or any portion of the IRS workforce under the GS Pay System, subject to
guidance to be issued by the Office of Personnel Management (OPM). In December 2000, the
OPM prescribed criteria for IRS paybanding systems that followed certain principles specified
by the RRA 98.5
Congress realized the IRS needed the ability to recruit and retain high-quality leadership to
transform the agency into an efficient, modern, and responsive organization designed around the
needs of taxpayers. The workforce classification and pay provisions of the RRA 98 offered the
IRS the flexibility to design its salary and incentives structures to support mission
accomplishment and to base pay decisions on performance rather than length of service.
The current Internal Revenue Pay-for-Performance System has three components: Senior
Manager, Department Manager, and Frontline Manager Paybands. Figure 1 describes the


1
  The GS Pay System is established by Chapter 51 and subchapter III of Chapter 53, 5 U.S.C. Section 9509(a).
2
  Occupational series means positions similar as to specialized work and qualification requirements.
3
  Career path means a grouping of one or more occupational series into broad occupational families or career tracks
for job evaluation, pay, or other purposes. A career path may contain one or more bands.
4
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.). The authority to
establish one or more broadbanding systems is in Section 9509 of the statute.
5
  5 U.S.C. Section 9509(b)(1)(B)(4) - The criteria to be prescribed by the OPM shall, at a minimum, (A) ensure the
structure of any broadbanded system maintains the principle of equal pay for substantially equal work; (B) establish
the minimum and maximum number of grades that may be combined into paybands; (C) establish requirements for
setting minimum and maximum rates of pay in a payband; (D) establish requirements for adjusting the pay of an
employee within a payband; (E) establish requirements for setting the pay of a supervisory employee whose position
is in a payband or who supervises employees whose positions are in paybands; and (F) establish requirements and
methodologies for setting the pay of an employee upon conversion to a broadbanded system, initial appointment,
change of position or type of appointment (including promotion, demotion, transfer, reassignment, reinstatement,
placement in another payband, or movement to a different geographic location), and movement between a
broadbanded system and another pay system.
                                                                                                            Page 1
                             The Internal Revenue Pay-for-Performance System
                             May Not Support Initiatives to Recruit, Retain, and
                                          Motivate Future Leaders



positions and shows the number of managers included in each component of the Internal
Revenue Pay-for-Performance System as of June 2006.
    Figure 1: Components of the Internal Revenue Pay-for-Performance System
                                                                              Number of           Percentage of
    Payband                       Converted Positions                         Managers             Managers
                    GS-14 and 15 managers who report directly to an
Senior
                    executive or who manage one or more subordinate               1,503                 18%
Manager             managers.

                    GS-11 through 13 second-level managers in the
Department
                    campus6 functions: Accounts Management,                        400                   5%
Manager             Submission Processing, and Compliance.

Frontline           GS-5 through 15 managers not covered by Senior
                    and Department Manager Paybands                               6,630                 77%
Manager
Totals                                                                            8,533                100%
Source: The Agency-Wide Shared Services function Human Resource Reporting Center.

In contrast, the GS Pay System covers most positions in the Federal Government. It consists of
15 grades, each broadly defined in terms of work difficulty, responsibility, and the qualifications
required for performance. Each grade consists of a salary range divided into 10 steps. In
general, pay progression to the next step is based on length of service. If employees demonstrate
an acceptable level of competence for a specified amount of time, they will advance to the next
higher step.7 Except for career-ladder promotions, advancement to a higher grade is usually a
competitive promotion, and employees must have successfully completed qualifying work
experience at the lower grade.8
In the past, individual Federal Government agencies have obtained approval to introduce
pay-for-performance systems. However, the transition of the Federal Government from the
traditional GS Pay System was accelerated when the Department of Defense and the Department
of Homeland Security obtained approval to implement performance-based pay systems.
Congress approved these new pay systems in response to the President’s request for more


6
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
7
  A within-grade increase or step increase is a periodic increase in a GS Pay system employee’s rate of basic pay
from one step of a grade of his or her position to the next higher step of that grade. Within-grade advancement is
scheduled after each 52 weeks of service in steps 1, 2, and 3; after 104 weeks in steps 4, 5, and 6; and after
156 weeks in steps 7, 8, and 9. Grade advancement generally requires 1 year of qualifying experience at the next
lower grade in the job series.
8
  A career ladder consists of the grades ranging from the lowest level at which an employee can be hired as a trainee
to the journeyman grade level, also known as the full performance level.
                                                                                                             Page 2
                           The Internal Revenue Pay-for-Performance System
                           May Not Support Initiatives to Recruit, Retain, and
                                        Motivate Future Leaders



flexibility in how civil service employees are paid and managed. Under this new approach, the
decades-old GS Pay System, which provided predictable pay raises, could now be replaced with
compensation based on merit and market-rate conditions.
This review was performed at the IRS National Headquarters in the Office of the Chief Human
Capital Officer (CHCO), the Pay-for-Performance Program Office, and the One-Stop Service
and Customer Relations Program Office in Washington, D.C.; the embedded Human Resources
Offices for the Agency-Wide Shared Services function and the Small Business/Self-Employed
Division in Washington, D.C.; and the Wage and Investment Division in Atlanta, Georgia,
during the period September 2005 through January 2007. We also obtained information from the
Department of the Treasury Office of Human Resources Strategy and Solutions; the Office of
Management and Budget Department of the Treasury Representatives; the OPM, Strategic
Human Resources Policy Division, and the Human Capital Desk Officer for the Department of
the Treasury in Washington, D.C.; the Government Accountability Office in Washington, D.C.,
and San Francisco, California; the Professional Managers Association in Washington, D.C.;9 and
the Federal Managers Association in New York, New York.10 The audit was conducted in
accordance with Government Auditing Standards. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




9
  The Professional Managers Association represents about 2,000 IRS managers ranging in grade from GS-5 to
GS-15.
10
   The Federal Managers Association represents about 1,400 IRS managers ranging in grade from GS-5 to GS-15.
                                                                                                       Page 3
                             The Internal Revenue Pay-for-Performance System
                             May Not Support Initiatives to Recruit, Retain, and
                                          Motivate Future Leaders




                                       Results of Review

The Internal Revenue Pay-for-Performance System May Not Reward
and Motivate High Levels of Performance for Managers
There are several areas in which the Internal Revenue Pay-for-Performance System can be
improved to better support the IRS’ desire to attract and retain the highest performing talent for
its management positions. For example, the IRS did not use its RRA 98 authority to improve the
existing manager classification system, which was considered to be especially problematic. In
addition, the IRS did not establish pay policies and procedures to ensure managers were paid
comparably to their GS Pay System counterparts and commensurate with their individual
performance. Finally, the CHCO did not allow sufficient time to address workforce
classification and pay issues that should have been resolved before making changes to managers’
salaries and pay systems. As a result, the structure and methods of pay progression included in
the redesigned Internal Revenue Pay-for-Performance System may not support the positive
impacts of Human Capital Office (HCO) initiatives to recruit, retain, and motivate future IRS
leaders. On the contrary, the current System may discourage both managers as well as
nonmanagers from applying for management positions.
The IRS is facing significant operational challenges, including budget shortfalls and high
performance expectations for both service and enforcement. Its ability to meet program
requirements and the expectations of external and internal customers depends largely on
recruiting and maintaining a highly skilled and motivated workforce. Over the next few years,
the IRS faces significant challenges in this area because of the potential for substantial loss of
highly skilled technical experience in mission critical occupations.11 For example, the Small
Business/Self-Employed Division and the Large and Mid-Size Business Division reported in
their Fiscal Year 2006 strategic assessments that the human capital crisis continues to intensify
as managers and employees in key occupational series increasingly become eligible for
retirement or migrate to other areas.
As of January 2004, 76.6 percent of IRS executives, 48.9 percent of IRS managers, and
20 percent or more of all other employees in mission critical occupations were eligible for either
early or optional retirement. Within the divisions, 30.3 percent of managers in the Large and
Mid-Size Business Division were eligible for optional retirement in January 2004. In the Wage
and Investment Division, 22 percent of the current management team is projected to retire by


11
  Mission critical occupations are those series or occupations critical to frontline enforcement and direct support to
frontline operations needed to meet the stated IRS goals.
                                                                                                               Page 4
                             The Internal Revenue Pay-for-Performance System
                             May Not Support Initiatives to Recruit, Retain, and
                                          Motivate Future Leaders



2007. The productivity of these employees and their collective ability to deliver quality service
is critical to the successful accomplishment of the IRS’ goals.
Strategic recruitment and succession planning efforts are underway throughout the IRS to ease
the potential effects of managers who may retire. It is essential that the Internal Revenue
Pay-for-Performance System aligns with and reinforces recruitment and succession planning
efforts. To maintain the continuity of its leadership and workforce, the IRS must ensure its
managerial compensation system effectively attracts and retains high-performing individuals
from both inside and outside the IRS and provides greater flexibility to reward and motivate high
levels of performance.

The current Internal Revenue Pay-for-Performance System consists of three
components
The first payband for senior managers was implemented in March 2001. When it was
implemented, the Senior Manager Payband had 10 steps ranging in salary from the equivalent of
a GS-14 Step 1 through a GS-15 Step 10. The managers received the same annual increases to
their basic pay,12 including locality pay,13 as those provided to GS Pay System employees.
However, the GS Pay System entitlement to step increases was removed. Basic pay was
reviewed every 2 years, and managers progressed from step to step within the Payband only if
their performance rating met or exceeded certain standards.
In November 2001, a similar payband structure was extended to managers in the new IRS
campus functions: Accounts Management, Submission Processing, and Compliance. Salary
grades GS-11 through GS-13 were consolidated into a single 16-step Department Manager
Payband.
Varying in-house opinions regarding the structural design, as well as budget constraints, delayed
the IRS from implementing paybanding for the remaining IRS managers who occupied frontline
positions. In addition, the Department of the Treasury and the CHCO have been working with
the OPM since early 2004 to revise the paybanding criteria for the IRS. The proposed changes
include a wider variety of paybands and the elimination of all salary increases, including locality
pay, for paybanded managers and employees who receive an Unacceptable rating. In
September 2005, the IRS Commissioner decided to implement a Frontline Manager Payband
using the OPM Criteria of 2000, which are the same criteria used for the Senior Manager and
Department Manager Paybands. The IRS plans to review the Internal Revenue



12
   Basic pay is a rate of pay that is continuing and is set by law or administrative action before any additional
payments or deductions of any kind. Basic pay does not include locality pay.
13
   Locality pay adjustments are based on salary surveys in the area where an employee works. Employees paid
under the GS Pay System receive an annual pay increase that is equal to the GS Pay System across-the-board pay
adjustment plus the locality pay adjustment.
                                                                                                            Page 5
                             The Internal Revenue Pay-for-Performance System
                             May Not Support Initiatives to Recruit, Retain, and
                                          Motivate Future Leaders



Pay-for-Performance System for all managers when the OPM completes its paybanding
regulations.
The Frontline Manager Payband was fundamentally different from the earlier Senior Manager
and Department Manager Paybands in terms of structure and methods of pay progression. It
consists of 11 single-grade bands (5 through 15) with open-rate ranges of pay (no steps) that are
the same as the minimum and maximum rates in the GS Pay System for the correlating grade.
Under the Frontline Manager Payband, managers are eligible for a performance-based increase
to their salary each year. The performance-based increase replaces the GS Pay System
within-grade step increase, quality step increase,14 and annual across-the-board pay adjustment.
In March 2006, the CHCO revised the Senior Manager and Department Manager Paybands to
incorporate the stepless design and pay elements of the Frontline Manager Payband. These
Paybands, however, retained their multigrade consolidated structure.

The Frontline Manager Payband did not streamline job classification
The Frontline Manager Payband does not provide relief from the rigidity of the current GS Pay
System. The IRS indicated that it needed the ability to streamline job classification, which was
found to be especially problematic in the managerial ranks. The OPM Criteria provided the IRS
with broadbanding authority to reduce management layering by offering the flexibility to group
job positions into broad paybands based on the nature of work and competencies needed.
Although the IRS used the RRA 98 authority to proceed with the implementation of the Frontline
Manager Payband, it does not appear that the single-grade band design will help to facilitate pay
and classification adjustments necessary to respond to changing organizational priorities, as
envisioned by the RRA 98. Paybanding generally expands an organization’s ability to hire more
quickly and offer competitive salaries, as well as provide flexibility to assign new or different
work to support mission accomplishment. In addition, this type of structure may provide
employees with better opportunities to diversify their knowledge and advance their careers.
The only structural difference between the Frontline Manager Payband and the GS Pay System is
the elimination of the “steps” within each grade in the Frontline Manager Payband.15 Figure 2
shows an example of the structure of the Frontline Manager Payband compared with the GS Pay
System for one payband.




14
   A quality step increase is an increase in an employee’s rate of basic pay from one step of the grade to the next
higher step of that grade. Any non-Senior Executive Service employee who occupies a permanent GS Pay System
position, is paid less than the maximum rate of his or her grade, receives an Outstanding performance rating of
record, and is not compensated under the Internal Revenue Pay-for-Performance System or an incentive pay system
is eligible for a quality step increase.
15
   Differences in how employees’ salaries change within the Payband are discussed later in this report.
                                                                                                            Page 6
                             The Internal Revenue Pay-for-Performance System
                             May Not Support Initiatives to Recruit, Retain, and
                                          Motivate Future Leaders



     Figure 2: Frontline Manager Payband Compared to GS Pay System (in Dollars)

                  Step 1    Step 2   Step 3   Step 4   Step 5   Step 6   Step 7   Step 8   Step 9     Step 10
      GS-916      38,175    39,448   40,721   41,994   43,267   44,540   45,813   47,086   48,359     49,632

                 Minimum                                                                            Maximum
      FM-917     38,175                                                                               49,632
      Source: IRS HCO Policy Number 85 and GS Pay System Salary Table for 2006.

When the Frontline Manager Payband was implemented, all frontline managers were placed into
the payband that corresponded to their GS Pay System grade level. For example, all GS-9
managers were converted to FM-9 managers.
Use of a payband system that streamlines job classification based on the nature of the work
performed and level of competencies has been attempted at other Federal Government agencies.
For example, the Department of Defense National Security Personnel System was designed to
consolidate all GS Pay System employees into one of four career groups:
       •   Standard.
       •   Investigative and Protective Services.
       •   Scientific and Engineering.
       •   Medical.
Each of these career groups included pay schedules comprised of paybands that allow employees
to progress during their careers. For example, the Standard Career Group includes four pay
schedules: professional/analytical, technician/support, supervisor/manager, and student. Each of
these pay schedules included three paybands that combined GS Pay System grades and provided
the employees with the opportunity to progress based on their performance and complexity of the
work, as well as promoting broader skill development and advancement opportunities within and
across paybands. Figure 3 shows the pay schedules and the associated paybands for the Standard
Career Group.




16
     Fiscal Year 2006 Base Pay.
17
     Frontline Manager Payband 9.
                                                                                                        Page 7
                         The Internal Revenue Pay-for-Performance System
                         May Not Support Initiatives to Recruit, Retain, and
                                      Motivate Future Leaders



         Figure 3: Example of the Paybanding Structure for One of the Four
                      Department of Defense Career Groups




      Source: Department of Defense National Security Personnel System Town Hall Briefing, May 2006.

The HCO recognized the advantages of grouping positions into broad, occupational paybands.
However, after several attempts, the Human Capital Advisory Council failed to reach an
organizational consensus on how to design multigrade, occupational bands for the frontline
managers because of differing career paths among the business units. Because of the difficulty
encountered, the HCO decided to preserve the current classification framework and shifted its
focus to one primary objective: the implementation of a pay-for-performance system for
managers. The HCO acknowledged that the frontline manager single-grade band design was
implemented to reflect the IRS’ existing frontline management structure, which had a wide
variety of occupations and grades that were difficult to group into common levels of work. A
payband structure that groups occupations into broader classifications would improve the
flexibility needed to reassign employees for management. In addition, this structure would help
achieve a reduction in classification determinations, thereby alleviating pressure on the existing
classification system.




                                                                                                       Page 8
                            The Internal Revenue Pay-for-Performance System
                            May Not Support Initiatives to Recruit, Retain, and
                                         Motivate Future Leaders



The Internal Revenue Pay-for-Performance System does not ensure managers are
compensated comparably with IRS employees in the GS Pay System
In response to the growing need for pay reform in the Federal Government, Congress enacted the
Federal Employees Pay Comparability Act of 1990.18 This Act provides for a two-part annual
pay adjustment for workers in the GS Pay System: an across-the-board pay adjustment that is
tied to the Employment Cost Index and a locality pay adjustment that varies by pay locality.19
From Calendar Years 2000 through 2006, the annual across-the-board pay adjustment varied
from 2.1 percent to 3.8 percent. Congress intended that these annual pay adjustments would
achieve comparability between Federal and non-Federal Government jobs for the same levels of
work within the same local pay area. These pay adjustments are not tied to performance.
However, for supervisory employees paid under the Internal Revenue Pay-for-Performance
System, the OPM provided the IRS with the flexibility to withhold a portion or all of the annual
across-the-board pay adjustment as long as the manager’s salary does not fall above or below the
range of salaries in the comparable GS Pay System grade.
Under the current Internal Revenue Pay-for-Performance System, all managers are eligible to
receive a performance-based salary increase commensurate with their annual evaluation ratings.20
For example, managers who receive an Outstanding performance rating will receive a higher
performance-based increase than managers who receive an Exceeded rating, and managers who
receive an Exceeded rating will receive a higher performance-based increase than managers who
receive a Met rating. The performance-based increase replaces the GS Pay System within-grade
step increase, quality step increase, and annual across-the-board pay adjustment. A
performance-based salary increase is different from a performance bonus (award); a manager
who receives a performance-based increase to basic pay may also receive a performance bonus
in the same year.21
Prior to implementation of the Frontline
                                                          “Why . . . would we [IRS] be able to attract the
Manager Payband, the IRS’ policy was to                   best and brightest for management when there
provide the annual across-the-board pay                      is less and less financial incentive . . .?”
adjustment to all managers in the Senior and
Department Manager Paybands. However,                     “. . . to deliver what is expected only to lose real
the IRS decided to discontinue this policy                  compensation would be demoralizing and an
                                                                 incentive to get out of management . . ”
for its redesigned Internal Revenue
Pay-for-Performance System. As a result,                                Professional Managers Association
managers compensated under the Internal
Revenue Pay-for-Performance System could

18
   Pub. L. No. 101-509, title V, Sec. 529 ((title I, Sec. 101(a)(1)), Nov. 5, 1990, 104 Stat. 1427, 1429).
19
   The across-the-board pay adjustment is generally tied to the Employment Cost Index, a measure of the change in
the cost of labor. The locality pay adjustment is based on salary surveys in an area where an employee works.
20
   Annual evaluation ratings are as follows: Outstanding, Exceeded, Met, Minimally Satisfactory, or Not Met.
21
   A performance bonus is a lump-sum payment based on an annual performance evaluation rating.
                                                                                                          Page 9
                             The Internal Revenue Pay-for-Performance System
                             May Not Support Initiatives to Recruit, Retain, and
                                          Motivate Future Leaders



receive smaller pay adjustments than the approximately 90,000 IRS employees who remain in
comparable GS Pay System grades and who will continue to receive the annual across-the-board
pay adjustment. As a result, the IRS may have difficulty recruiting and retaining managers
because of the impact this policy has on the managers’ compensation.
The decision to provide the minimum increase equivalent to the annual across-the-board pay
adjustment to managers is at the discretion of the IRS Commissioner and not required by law.
Only the approximately 9,000 managers in the Internal Revenue Pay-for-Performance System
are affected by the discretion. The remaining 90 percent of IRS employees are not affected by
the uncertainty of whether they will receive the annual across-the-board pay adjustment.
In October 2006, the IRS Deputy Commissioner for Operations Support announced that,
for Calendar Year 2007, a performance-based increase that is at least equal to the annual
across-the-board pay adjustment would be given to all managers who received a Met, an
Exceeded, or an Outstanding performance rating. In January 2007, the Deputy Commissioner
publicized the specific performance-based increases22 for managers who received the following
performance ratings:
     •   Outstanding – 6.5 percent of their basic pay.
     •   Exceeded – 3.6 percent of their basic pay.
     •   Met – 1.7 percent of their basic pay.23
     •   Not Met or Minimally Satisfactory – 0 percent of their basic pay.
Therefore, the managers remained uncertain throughout their entire Fiscal Year 2006 rating
period as to how much raise they might receive, if any at all. In addition, the IRS has not
provided assurance for future years that the minimum increase will be comparable to the annual
across-the-board pay adjustment provided to GS Pay System employees. Without this
protection, it is possible that a paybanded manager who meets minimally acceptable standards
may receive a percentage increase that is less than an employee performing at the same level in
the GS Pay System. The GS Pay System employees who meet minimum performance
expectations are also eligible for within-grade step increases that are based on longevity and
equal to approximately 3 percent for each step.24 The paybands in the Internal Revenue
Pay-for-Performance System do not have steps, so managers may not receive the equivalent of
within-grade increases.
The IRS performance-based increase is allocated from a resource pool based on the amounts
previously expended for within-grade step increases, quality step increases, and the annual

22
   The 2007 performance-based increase did not include locality pay.
23
   For Calendar Year 2007, the GS Pay System across-the-board pay adjustment was 1.7 percent.
24
   The IRS estimated the average annual increase was approximately 1.5 percent, based on the waiting periods.
There are 10 steps for each GS Pay System pay grade. The within-grade increase for Calendar Year 2005 ranged
from 3.3 percent at the Step 1 level to 2.6 percent at the Step 10 level. The waiting periods for each step are shown
in Footnote 7.
                                                                                                             Page 10
                           The Internal Revenue Pay-for-Performance System
                           May Not Support Initiatives to Recruit, Retain, and
                                        Motivate Future Leaders



across-the-board pay adjustment approved for the next calendar year. The HCO calculated a
1.5 percent annualized yield for the within-grade and the quality step increases. The funding for
the performance-based increase pool will be determined annually and on an IRS-wide basis. For
example, the January 2007 performance-based increase pool was 3.2 percent of the managers’
salaries (1.5 percent for the within-grade and the quality step increases plus 1.7 percent for the
annual across-the-board pay adjustment). However, the United States Merit Systems Protection
Board recently reported that a pay-for-performance system funded by money earmarked for the
annual across-the-board pay adjustment and within-grade step increases may create resistance
among those who perceive that their incomes are falling behind and heighten competition among
employees in a negative way.25
There are two reasons for this possible resistance. First, the annual across-the-board pay
adjustment is not performance-based; it is tied to market conditions for comparable salaries.
Therefore, it should not be included with the performance-based increase pool in the future. The
IRS should dedicate a portion of its budget to provide paybanded managers performing at a
satisfactory level with a minimum annual salary increase equal to the annual across-the-board
pay adjustment. Second, it is possible that, in the future, managers who receive a Met rating
would not get an increase equivalent to the full annual across-the-board pay adjustment in order
to pay for the higher performance-based increases that could be given to managers who received
a higher rating.
Under the current policy, it is also possible that some IRS managers could receive a smaller
annual pay adjustment than their equally performing equivalent GS Pay System counterparts. In
addition, the IRS’ efforts to create an effective pay-for-performance compensation system may
be undermined if the performance-based increase pool is not adequately funded. This could
serve as a disincentive for top-performing IRS employees to seek positions in management, as
well as negatively affect recruiting and retention efforts.

Performance-based increases may not be commensurate with the managers’
performance
The OPM requires IRS salaries in its paybanding systems to have the same dollar range as
salaries paid in the GS Pay System. For example, the salary range for each Frontline Manager
Payband matches the salary range for each pay grade from GS-05 through GS-15. Although the
paybands do not include steps, the minimum and maximum salaries for each payband are equal
to the minimum and maximum salaries for the GS Pay System pay grade. Each year, if Congress
authorizes an across-the-board pay adjustment for GS Pay System employees, the minimum and
maximum salaries in the IRS paybands will increase by the same amount as the corresponding
GS Pay System pay grade.


25
  United States Merit Systems Protection Board, Designing an Effective Pay for Performance Compensation System
(dated January 2006) xiv, 21.
                                                                                                     Page 11
                       The Internal Revenue Pay-for-Performance System
                       May Not Support Initiatives to Recruit, Retain, and
                                    Motivate Future Leaders



Because the increase in the maximum salary of each payband is limited to the GS Pay System
maximum salary in the comparable pay grade, high-performing managers at the highest end of
the payband will be limited to an annual increase equivalent to the annual across-the-board pay
adjustment, regardless of their performance rating. This is due to the limitation that their
compensation cannot be higher than the maximum GS Pay System salary for that pay grade.
For example, using the salaries of the Frontline Manager-9 band in Figure 2 and the
performance-based increases approved in January 2007, a manager making $38,175 and rated as
Outstanding could receive a performance-based increase of $2,481; however, a manager making
$49,632 and rated as Outstanding could receive a performance-based increase of only $838.
Combining more than one GS Pay System grade into the payband would reduce the number of
managers who would be affected by this limitation.
In addition, because the minimum salary in the payband must keep pace with the equivalent
minimum salary for the corresponding GS Pay System grade, minimally successful managers at
the lowest end of the payband must receive the equivalent of the annual across-the-board pay
adjustment. Therefore, minimally performing managers at the low end of the payband would
receive the same percentage salary increases as high-performing managers at the high end of the
payband and could receive a higher percentage increase than equally performing managers in the
middle of the band. Providing all managers who meet performance expectations with the annual
across-the-board pay adjustment would minimize this inequity.

Recommendations
Recommendation 1: The CHCO should reconsider the structure of the Internal Revenue
Pay-for-Performance System for the Frontline Manager Payband by streamlining job
classifications to be more broadly based on the nature of the work performed and competencies.
       Management’s Response: IRS management agreed with this recommendation,
       stating that the single-grade structure implemented in September 2006 met the diverse
       needs of the IRS workforce and mission and that the OPM Criteria provided the IRS with
       this flexibility. The IRS has initiated a third-party evaluation of the Internal Revenue
       Pay-for-Performance System in its entirety, including an assessment of the Frontline
       Manager Payband. This evaluation will be conducted in 3 phases over 5 years; will
       determine whether, and how strongly, the current Internal Revenue Pay-for-Performance
       System supports the human capital organizational goals to recruit, retain, and motivate
       future leaders; and will provide recommendations to strengthen the System. The CHCO
       agreed to consider our recommendation along with the recommendations from the
       third-party assessment to determine the need for System modifications. Management did
       not include an expected completion date in their response.
       Office of Audit Comment: We disagree that the frontline manager single-grade band
       design met the diverse needs of the IRS workforce and mission. We believe some

                                                                                        Page 12
                        The Internal Revenue Pay-for-Performance System
                        May Not Support Initiatives to Recruit, Retain, and
                                     Motivate Future Leaders



       adjustments may be necessary to improve managers’ morale and enhance the IRS’ ability
       to recruit qualified employees into manager positions. In addition, some adjustments
       may be necessary when the OPM finalizes changes to the regulations governing the IRS
       Pay-for-Performance Systems. To allow the IRS an opportunity to complete its
       evaluation of the current System and implement changes, we will report an expected
       completion date of December 31, 2008.
Recommendation 2: The CHCO should reinstate the policy of providing managers who
receive a satisfactory (Met) or higher rating with the annual across-the-board pay adjustment that
is provided to IRS employees in the GS Pay System.
       Management’s Response: IRS management disagreed with this recommendation,
       stating that, under current IRS policies, all managers except those that receive a
       Minimally Satisfactory and Not Met rating receive an annual performance-based
       increase. The authority to provide managers who receive a satisfactory or higher rating
       with a minimum increase equivalent to the annual GS Pay System across-the-board pay
       adjustment rests with the IRS Commissioner, who will consider our recommendation to
       exercise this discretion in the future. To date, the Commissioner has granted managers
       who received a satisfactory or higher rating under the Internal Revenue
       Pay-for-Performance System a minimum increase equivalent to the GS Pay System
       across-the-board pay adjustment. However, instituting a mandatory minimum increase in
       policy is not fiscally practicable at this time due to budgetary implications and restraints.
       Office of Audit Comment: We recognize the flexibility provided to the
       Commissioner to set pay increases under the OPM Criteria and are not suggesting this
       authority be removed. We also recognize the Commissioner’s desire to grant pay raises
       with meaningful distinctions for managers rated as Outstanding, Exceeded, and Met. We
       believe the Commissioner can do both. The money set aside for salary increases includes
       the total estimated amounts that would have been given for within-grade and quality step
       increases, as well as the across-the-board adjustment. The money for the first two
       components (within-grade and quality step increases) can be allocated to the managers
       who are rated higher on their annual performance ratings. Considering this, it is unclear
       why it would be fiscally impracticable to reinstate the policy of providing managers who
       receive a Met or higher rating with the annual GS Pay System across-the-board pay
       adjustment.
       Although the Commissioner granted managers who received a Met or higher
       performance rating a minimum increase equivalent to the annual across-the-board pay
       adjustment in January 2007, this was intended to apply only to that year. In 2006, the
       IRS changed its prior policy of granting the across-the-board pay adjustment to all
       managers with satisfactory performance and stated future pay adjustments would be
       decided on a year-by-year basis by the current Commissioner. However, the
       across-the-board pay adjustment is not tied to an employee’s level of performance; it is a

                                                                                            Page 13
                        The Internal Revenue Pay-for-Performance System
                        May Not Support Initiatives to Recruit, Retain, and
                                     Motivate Future Leaders



       measure of the increase in the cost of labor. As a result, if in the future this flexibility
       results in some managers not receiving the across-the-board adjustment, there are
       indications that it could come at the expense of the morale and employee satisfaction of
       managers performing at the satisfactory level. We believe the IRS should consider all of
       the implications of such a decision in allocating pay raises to its managers.
Recommendation 3: The CHCO should consider alternate sources of funding for the
performance-based salary pools and ensure the amounts dedicated for increases are sufficient to
both reward top performers and compensate other managers equitably, based on their
performance.
       Management’s Response: IRS management agreed with this recommendation,
       stating that budget neutrality is one of the principles guiding the design of the Internal
       Revenue Pay-for-Performance System. The CHCO has initiated a third-party evaluation
       of the Internal Revenue Pay-for-Performance System in its entirety, including a review of
       the performance-based salary pools. The CHCO agreed to consider our recommendation
       along with the recommendations of the third-party assessment to determine the need for
       System modifications. Management did not include an expected completion date in their
       response.
       Office of Audit Comment: IRS efforts to create an effective pay-for-performance
       compensation system may be undermined if the performance-based salary pools are not
       adequately funded. We agree that a comprehensive evaluation is needed to determine the
       adequacy of the funding for these pools and to assess the effectiveness of the
       methodology used to calculate future salary increases. To allow the IRS an opportunity
       to complete the study and implement changes, we will report an expected completion
       date of December 31, 2008.




                                                                                            Page 14
                        The Internal Revenue Pay-for-Performance System
                        May Not Support Initiatives to Recruit, Retain, and
                                     Motivate Future Leaders



Inadequate Communication Increased Opposition and Decreased
Morale
In January 2006, the United States Merit Systems Protection Board provided guidance on
designing an effective pay-for-performance compensation system. The guidance recommends
that communication, training, and transparency are essential to facilitate pay system integrity.
Specifically, buy-in is promoted by involving those employees most affected by the new pay
system early in the development process rather than trying to pull everyone on board after the
plan is finalized. The guidance states that supervisors and managers need to be trained in the
mechanics of the pay-for-performance process and that the first aspect of transparency is
systemic–how the pay system operates. Some Federal Government agencies that have
implemented, or are in the process of implementing, a pay-for-performance system have
attempted to involve employees prior to implementation. For example, the Department of
Defense has provided for its employees extensive training and workshops that give specific
details about the system and encourage employees to ask questions and express concerns.
However, the IRS HCO did not adequately attempt to seek support or buy-in from affected
managers before implementing the Frontline Manager Payband in September 2005. The IRS had
initially planned to implement this Payband at the beginning of Fiscal Year 2007, which would
have allowed more time for structure design, planning, and communications with affected
employees. However, it later reconsidered this schedule and decided to expedite the
implementation of the Payband in an effort to “minimize the impact of the conversion costs
[from the GS Pay System to paybanding] in Fiscal Year 2005.” With its immediate goal of
meeting the accelerated deadline for implementation, the HCO did not allow sufficient time to
communicate the details of the new System to the affected managers, which increased opposition
and apprehension. Approximately 1 month prior to implementation, the HCO provided
managers with information about the System, but the communication and training was
essentially one-way (video training tapes) and did not
allow the affected managers an opportunity to express         “I have never seen an issue that
preferences or concerns about the System before it was        has raised as much heat as the
imposed.                                                     performance-based increase pool.
                                                                  Managers are vehemently
We contacted the two Associations representing IRS             opposed to the concept.”
managers, the Professional Managers Association and            Federal Managers Association
the Federal Managers Association, to obtain an
indication of the managers’ perspective on the way in
which the IRS developed its pay-for-performance
system. Both Associations reported a significant number of questions and concerns from their
members about how the HCO decided on the structure and pay adjustment policies for the
Frontline Manager Payband. The majority of the comments expressed frustration about the lack
of communication from the HCO about how the managers would be affected. Members of both

                                                                                           Page 15
                               The Internal Revenue Pay-for-Performance System
                               May Not Support Initiatives to Recruit, Retain, and
                                            Motivate Future Leaders



Associations were also concerned that it appeared the Frontline Manager Payband was not as fair
a compensation system as the GS Pay System. The IRS National Conference Chairman of the
Federal Managers Association noted that a survey found an overwhelming majority (93 percent)
of members who were frontline managers responding to the survey were opposed to the concept
of the performance-based increase pool. The opinions expressed in this survey indicated a
perception that the HCO changed IRS managers’ compensation without considering the
legitimate concerns and opinions of the affected managers.
In August 2006, both Associations surveyed their memberships to determine if their views of the
new Internal Revenue Pay-for-Performance System, in particular the performance-based increase
pool concept, had changed since the System was first introduced in September 2005. This was
done in anticipation of meeting with the IRS Commissioner before the final decision on how the
pool would be distributed to the managers. Over 92 percent of the 1,019 respondents from the
Federal Managers Association remained opposed to including the annual across-the-board pay
adjustment in the pool. This majority believed all managers who meet performance expectations
should receive, at a minimum, the full annual across-the-board pay adjustment approved by
Congress. The main reason for their opposition stems from the fact that other IRS employees in
the GS Pay System will continue to receive the increase. Consequently, managers who meet
expectations may receive a lower percentage increase to their basic salaries than the employees
they supervise.
Some members of the Professional Managers Association agreed that managers who are rated as
Exceeded and Outstanding should be appropriately rewarded for their performance. However,
survey respondents overwhelmingly disagreed that the higher compensation should be made at
the expense of those who are rated as satisfactory (Met). For example, 466 (96 percent) of the
483 respondents agreed that managers who receive a satisfactory (Met) or better rating “should
receive the full annual adjustment approved by Congress and signed by the President.”
Eighty-nine percent of respondents disagreed with the statement that “managers receiving a
‘met’ rating should receive less compensation [less than the annual across-the-board pay
adjustment] so that an outstanding manager can get a substantial base pay increase and bonus.”
Finally, a few managers also expressed the desire to return to a nonmanagement position.
Additional survey responses included:
       •   Ninety-two percent of respondents answered “no” when asked if the current performance
           management system accurately identifies the truly ‘outstanding’ managers. This is
           important because the performance management system now ties in directly to managers’
           annual salary adjustments.26




26
     Ratings from the performance evaluation system may also be used as a basis for providing performance awards.
                                                                                                          Page 16
                        The Internal Revenue Pay-for-Performance System
                        May Not Support Initiatives to Recruit, Retain, and
                                     Motivate Future Leaders



   •   Ninety-two percent of respondents also stated that receiving no annual increase based on
       a Met rating under the current Pay-for-Performance Systems would not hurt their
       performance. However, many respondents reported this would decrease morale.
Although the CHCO has provided managers with some information since the implementation,
there was no disclosure of how the performance-based increase pool would be allocated among
the managers. Consequently, managers did not know how much their basic pay would increase
as a result of their Fiscal Year 2006 performance (the first rating period under the new pay
system) until January 2007. The business divisions and management organizations informed us
that this lack of communication caused speculation and widespread opposition.
As stated earlier, the HCO plans to review the Internal Revenue Pay-for-Performance System
when the OPM completes its paybanding regulations. In addition, the IRS may decide in the
future to include all of its employees (not just managers) in a pay-for-performance system. With
each of these situations, the IRS has an opportunity to solicit input from the affected employees
prior to implementing any new pay system.

Recommendation
Recommendation 4: The CHCO should offer employees an opportunity to express concerns
and questions about the new pay system directly to the HCO experts. In addition, the CHCO
should make an effort to communicate more openly and timely with employees before
implementing any new changes to employee compensation and benefits.
       Management’s Response: IRS management agreed with this recommendation and
       plans to continue partnering with the management Associations on pay-for-performance
       issues; work with the division/function stakeholders and communication representatives
       to determine the best means to communicate information; reinforce the effectiveness of
       the channels to submit questions and concerns; and more effectively communicate with
       employees before, during, and after implementing any new changes to the Internal
       Revenue Pay-for-Performance System. Management expects a strategy for
       communication to be developed by September 30, 2007.




                                                                                         Page 17
                            The Internal Revenue Pay-for-Performance System
                            May Not Support Initiatives to Recruit, Retain, and
                                         Motivate Future Leaders



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue
Pay-for-Performance System effectively links compensation to individual performance. We
focused our efforts on how the IRS implemented the new System for managers and whether the
IRS complied with the Personnel Flexibilities provisions of the RRA 98 and the OPM Criteria
for IRS Broadbanding System. We also evaluated potential risks to ongoing human capital
initiatives to recruit, retain, and motivate future IRS leaders. To accomplish this objective, we:
I.      Determined if the Senior Manager, Department Manager, and Frontline Manager
        Paybands1 established links between pay and individual performance.
        A. Reviewed current laws, regulations, policies, and procedures governing the Internal
           Revenue Pay-for-Performance System. We requested advice from the Treasury
           Inspector General for Tax Administration Office of Counsel on specific areas of
           concern related to the IRS’ compliance with the RRA 98 and the OPM Criteria for
           IRS Broadbanding System.
        B. Interviewed key Office of Management and Budget, OPM, National Treasury
           Employees Union, Department of the Treasury, and IRS personnel involved in the
           development, implementation, and evaluation of the Internal Revenue
           Pay-for-Performance System.
        C. Analyzed historical documents, communications available on the HCO Intranet
           web site “Payband Resource Center for Managers,” and minutes and briefings of
           Human Capital Board meetings to determine how the IRS’ managerial paybands
           evolved from their original design in 2001 to the current Internal Revenue
           Pay-for-Performance System.
        D. Contacted the Government Accountability Office, researched the new Department
           of Defense and Department of Homeland Security pay systems, and reviewed the
           United States Merit Systems Protection Board’s Report to the President to determine
           if the structure and pay adjustment policies of the Internal Revenue
           Pay-for-Performance System are aligned with current practices and implementing
           guidance for alternative pay-for-performance systems.



1
  Payband means a pay level or work level within a career path containing one or more GS Pay System grades and
related ranges of pay.
                                                                                                       Page 18
                           The Internal Revenue Pay-for-Performance System
                           May Not Support Initiatives to Recruit, Retain, and
                                        Motivate Future Leaders



II.     Identified the potential risks posed by the new System to the IRS’ ongoing human capital
        initiatives to recruit, retain, and motivate future IRS leaders.
        A. Reviewed the IRS Human Capital Strategic Plan for 2005 – 2009 and Implementation
           Plan for 2006 and 2007.
        B. Contacted the Professional Managers Association and the Federal Managers
           Association2 to obtain the current perspective and opinions of their membership
           regarding the policies and implementation of the new Internal Revenue
           Pay-for-Performance System.




2
 The Professional Managers Association represents about 2,000 IRS managers ranging in grade from GS-5 to
GS-15. The Federal Managers Association represents about 1,400 IRS managers ranging in grade from GS-5 to
GS-15.
                                                                                                    Page 19
                      The Internal Revenue Pay-for-Performance System
                      May Not Support Initiatives to Recruit, Retain, and
                                   Motivate Future Leaders



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Carl L. Aley, Director
Joan R. Floyd, Acting Audit Manager
Rosemarie M. Maribello, Lead Auditor
Daniel M. Quinn, Senior Auditor
Meaghan R. Shannon, Senior Auditor
Richard J. Viscusi, Senior Auditor
James M. Allen, Information Technology Specialist




                                                                                   Page 20
                     The Internal Revenue Pay-for-Performance System
                     May Not Support Initiatives to Recruit, Retain, and
                                  Motivate Future Leaders



                                                                  Appendix III

                        Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief Human Capital Officer OS:HC




                                                                           Page 21
        The Internal Revenue Pay-for-Performance System
        May Not Support Initiatives to Recruit, Retain, and
                     Motivate Future Leaders



                                                     Appendix IV

Management’s Response to the Draft Report




                                                              Page 22
The Internal Revenue Pay-for-Performance System
May Not Support Initiatives to Recruit, Retain, and
             Motivate Future Leaders




                                                      Page 23
The Internal Revenue Pay-for-Performance System
May Not Support Initiatives to Recruit, Retain, and
             Motivate Future Leaders




                                                      Page 24
The Internal Revenue Pay-for-Performance System
May Not Support Initiatives to Recruit, Retain, and
             Motivate Future Leaders




                                                      Page 25
The Internal Revenue Pay-for-Performance System
May Not Support Initiatives to Recruit, Retain, and
             Motivate Future Leaders




                                                      Page 26
